HHS/OIG, Audit - "Medicaid School-Based Services in Utah  Review of
Payment Rates," (A-07-06-04069)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid
School-Based Services in Utah  Review of Payment Rates," (A-07-06-04069)
October 19, 2007
Complete
Text of Report is available in PDF format (380 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The State agencys claims for Medicaid reimbursement for
school-based services generally were not in accordance with Federal requirements
or the State plan.  We were unable to determine what portion of $36.8 million of
the $37.9 million claimed was allowable as final payments.  The State agency did
not perform a cost settlement reconciling interim payments to actual costs to
determine final payments, as required by the State plan, because it considered
payments made to school districts to be final payments.  The State agencys
claims for the remaining $1.1 million, which were for nursing services that were
paid based on the Medicaid fee-for-service schedule, were allowable.
We recommended that the State agency (1) work with the Centers for Medicare and
Medicaid Services to determine what
portion of the
$36.8 million claimed based on interim payments is allowable and (2) perform
cost settlements to ensure that future final payments for school-based services
are based on actual costs.  The State agency concurred with the recommendations.